APPENDIX TABLE OF CONTENTS
Opinion of the Fifth Circuit
(July 11, 2019)..............

2

Order of the District Court
(March 13, 2019).........

5

Order of the Fifth Circuit Denying Petition
for Rehearing (August 9, 2019).............

11

App.2a
OPINION OF THE FIFTH CIRCUIT
(JULY 11, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
SANDRA G. HALE,
Plain tiff-Appellan t,
v.
UNITED STATES OF AMERICA;
DEPARTMENT OF VETERANS AFFAIRS;
STEPHEN SEDER, Doctor; RAJANI POTU, Doctor;
BAYLOR UNIVERSITY SYSTEM; MICHAEL
DEBAKEY MEDICAL CENTER (VA HOSPITAL),
Defendants-Appellees.
No. 19-20164
Appeals from the United States District Court
for the Southern District of Texas
USDC No. 4:16-CV-1189
Before: JOLLY, COSTA, and HO, Circuit Judges.
PER CURIAM*

* Pursuant to 5th Cir. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5th Cir. R. 47.5.4.

App.3a

Sandra Hale, a disabled veteran, sued Dr. Stephen
Seder, a dentist at DeBakey VA Medical Center, and
Dr. Rajani Potu, a physician there, from injuries that
resulted when her dentures were improperly dis­
infected. She also brought claims against the govern­
ment for negligent hiring and improper training.
Because Seder and Potu are federal employees and she
brought a tort claim, she could not sue them indiv­
idually. 28 U.S.C. § 2679(b)(1). But she could sue the
federal government for their alleged actions under
the Federal Tort Claims Act. Id. The district court
later granted summary judgment to the government,
and we review that decision de novo. Coleman v.
United States, 912 F.3d 824, 828 (5th Cir. 2019).
The FTCA allows private citizens to sue the federal
government when federal employees commit torts for
which a private person would be liable under state
law. Hannah v. United States, 523 F.3d 597, 601 (5th
Cir. 2008). Though Hale strains against this in her
briefs, her complaint alleges a health care liability
claim. Even her claims for negligent hiring are con­
sidered health care liability claims in Texas. See
Garland Cmty. Hosp. v. Rose, 156 S.W.3d 541, 546 (Tex.
2004). When someone claims they are harmed by a
medical professional attempting to treat them but
whose care falls below the accepted standards of
medical care, that claim is for health care liability.
Tex. Civ. Prac. & Rem. § 74.00l(a)(l3); see also Loaisiga
v. Cerda, 379 S.W.3d 248, 256 (Tex. 2012) (describing
the expansive application of Texas’s Medical Liability
Act).
In Texas, expert testimony is generally required
to establish the standard of care, to determine whether
the medical professional breached it, and to determine

App.4a
whether that breach caused the alleged injuries. Ellis
v. United States, 673 F.3d 367, 373 (5th Cir. 2012)
(quoting Jelinek v. Casas, 328 S.W.3d 526, 538 (Tex.
2010)). Of course, not every case requires it: if a
surgeon operates on the wrong knee or leaves a sponge
inside, no expert testimony is required. Haddock v.
Arnspiger, 793 S.W.2d 948, 951 (Tex. 1990). But this
case required an expert. Though Dr. Seder was fined
$600 by the Texas Department of Agriculture for using
the wrong chemical to disinfect her dentures, an expert
was required at minimum to establish that the denture
cleaning caused any injuries.
Hale designated an expert toxicologist to testify.
But by law the expert must be a doctor or, for dental
treatment, a dentist. Tex. Civ. Prac. & Rem. Code
§§ 74.401(a), 74.403(a). Because her expert cannot
demonstrate that any breach of a duty of care caused
her injuries, summary judgment was appropriate.
AFFIRMED.

App.5a
ORDER OF THE DISTRICT COURT
(MARCH 13, 2019)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
SANDRA G. HALE,
Plaintiff,
v.
UNITED STATES OF AMERICA, ET AL.,
Defendants.
Civil Action No. 4:16-CV-1189
Before: Alfred H. BENNETT,
United States District Judge.
Before the Court are Defendant United States’
Motion for Summary Judgment (the “Motion”) (Doc.
# 150), Plaintiffs Response and Cross-Motion (Doc.
# 151 and # 154), Defendant’s Reply (Doc. # 152),
Defendant’s Response to Plaintiffs Cross-Motion (Doc.
#153 and # 155), and Plaintiffs Motion for Ruling on
All Dispositive Motions (Doc. # 163). Having reviewed
the parties’ arguments and applicable legal authority,
the Court grants the Motion.

App.6a
I.

Background

This dispute arises from a visit to a dentist at
the Michael DeBakey VA Medical Center in Houston,
Texas. Doc. # 14 at 1. On May 6, 2014, Plaintiff alleges
that she suffered oral injuries resulting from upper
and lower partials, i.e., false teeth, improperly dis­
infected and placed in her mouth by Dr. Stephen J.
Seder, a dentist. Id. at 1-4. Additionally, Plaintiff al­
leges that her primary doctor, Dr. Rajani Potu, failed
to conduct appropriate testing and treatment con­
cerning her oral injuries during a May 9, 2014 visit.
Id. at 4-5. As a result, Plaintiff sued Dr. Seder, Dr. Potu,
and the United States (among others) for negligence.
Id. Now, the United States moves for summary judg­
ment, arguing that Plaintiffs expert is unqualified to
present evidence on multiple elements of her negligence
claims. 1
II. Legal Standard
Summary judgment is proper if there is no genuine
issue of material fact and the moving party is entitled
to judgment as a matter of law. Fed. R. Civ. P. 56. “A
genuine dispute as to a material fact exists if the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party. [Courts must construe]
all facts and inferences in the light most favorable to
the nonmoving party. But, summary judgment may not
be thwarted by conclusional allegations, unsupported
assertions, or presentation of only a scintilla of
evidence.” Rogers v. Bromac Title Services, L.L.C., 755
1 As outlined in the Court’s October 28, 2016 Order, Plaintiffs
claims proceed against only the United States pursuant to the
Federal Torts Claim Act. Doc. # 53 at 6-7.

App.7a
F.3d 347, 350 (5th Cir. 2014) (internal citations omit­
ted).
a. Federal Tort Claims Act (“FTCA”)
“The United States shall be liable . . . [for] tort
claims, in the same manner and to the same extent
as a private individual under like circumstances.”
FTCA, 28 U.S.C. § 2674 (West Supp. 2019). When a
plaintiff asserts a negligence claim against the United
States, state law applies if “the negligence alleged is
in the nature of medical malpractice.” Quijano v.
United States, 325 F.3d 564, 567 (5th Cir. 2003); see
also Hannah v. United States, 523 F.3d 597, 601 (5th
Cir. 2008) (“State law controls liability for medical
malpractice under the FTCA.”). Additionally, courts are
to apply “state-law requirements on expert witnesses
in medical malpractice cases.” Muniz v. United States,
CIV.A. No. H-12-1813, 2015 WL 1058097, at *13
(S.D. Tex. Mar. 9, 2015) (citing Pesantes v. United
States, 621 F.2d 175, 179 (5th Cir. 1980)). Accordingly,
an analysis of Texas law is appropriate because
Plaintiff alleges that she suffered her injuries in
Texas. See Doc. # 14 at 1.
b. Texas Medical Liability Act (“TMLA”)
Under Texas statutory law, an allegation of med­
ical malpractice is properly asserted as a “health care
liability claim.” See TMLA, Tex. Civ. Prac. & Rem.
Code Ann. § 74.00l(a)(13) (West Supp. 2019) (“‘Health
care liability claim’ means a cause of action against a
health care provider or physician for treatment, lack
of treatment, or other claimed departure from accepted
standards of medical care, or health care, or safety or
professional or administrative services directly related

App.8a

to health care, which proximately results in injury to
or death of a claimant, whether the claimant’s claim
or cause of action sounds in tort or contract.”).
Specifically, the elements of a health care liability
claim based on negligence are (l) the existence of a
legal duty to act according to an applicable standard
of care, (2) a breach of that duty, and (3) damages
proximately caused by the breach. Columbia Valley
Healthcare Sys., L.P. v. Zamarripa, 526 S.W.3d 453,
460 (Tex. 2017).
Furthermore, the TMLA has an expert report
requirement that “deter [s] frivolous lawsuits by
requiring a claimant early in litigation to produce the
opinion of a suitable expert that [her] claim has
merit.” Id. -, see also Tex. Civ. Prac. & Rem. Code Ann.
§§ 74.401(a) (“In a suit involving a health care liability
claim against a physician for injury to or death of a
patient, a person may qualify as an expert witness on
the issue of whether the physician departed from
accepted standards of medical care only if the person
is a physician”) and 74.403(b) (“In a suit involving a
health care liability claim against a dentist, a person
may qualify as an expert witness on the issue of the
causal relationship between the alleged departure from
accepted standards of care and the injury, harm, or
damages claimed if the person is a dentist or
physician”).
As a threshold issue, under the FTCA, “[t]he
plaintiff must establish the standard of care ... before
the factfinder may consider whether the defendant
breached that standard of care to the extent it con­
stituted negligence.” Hannah, 523 F.3d at 601.

App.9a

III. Analysis
As explained above, to proceed with her negligence
claim against the United States based on Dr. Seder’s
conduct, Plaintiff must establish the standard of care
that she alleges Dr. Seder breached as a dentist while
acting within the scope of his federal employment.
Hannah, 523 F.3d at 601. Similarly, to proceed with
her negligence claim against the United States based
on Dr. Potu’s conduct, Plaintiff must establish the
standard of care that she alleges Dr. Potu breached
as a primary care physician while acting within the
scope of her federal employment. Id. Additionally, under
Texas law, Plaintiff must establish those standards
of care with a qualified expert. See Tex. Civ. Prac. &
Rem. Code Ann. §§ 74.401(a), 74.403(b).
Here, the deadline for Plaintiff to designate her
experts was April 30, 2018. Doc. # 136 at 1. Plaintiff
designated Dr. Thomas Dydek as her only expert wit­
ness. See Doc. # 140 and # 141. Dr. Dydek has degrees
in mechanical engineering, environmental science,
and toxicology. See Doc. # 140, Ex. 1 at 1. He is not a
licensed physician or dentist.2 Therefore, under the
FTCA and the TMLA, Dr. Dydek does not qualify as
an expert witness on the issue of the causal relation­
ship between the alleged departure from accepted
standards of care for physicians or dentists and the
alleged injury suffered by Plaintiff. See Tex. Civ.
Prac. & Rem. Code Ann. §§ 74.401(a), 74.403(b).
Accordingly, because Plaintiff has failed to present
necessary expert evidence in support of her negligence
2 Furthermore, Dr. Dydek’s conclusions and opinions in his expert
report do not seem to be based on any examination of Plaintiff
or the partials giving rise to this dispute. See Doc. # 141 at 7.

App.lOa

claims against the United States based on the conduct
of Dr. Seder and Dr. Potu, the Court grants the Motion.
IV. Conclusion
For the foregoing reasons, the Motion is hereby
GRANTED, and all of Plaintiffs remaining claims are
DISMISSED.3
It is so ORDERED.
/s/ The Honorable Alfred H. Bennett
United States District Judge
March 12, 2019
Date

3 The United States’ Motion to Suspend Scheduling Order (Doc.
#169) and Motion for Expedited Hearing (Doc. #171) are hereby
DENIED as moot.

App.lla
ORDER OF THE FIFTH CIRCUIT DENYING
PETITION FOR REHEARING
(AUGUST 9, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
SANDRA G. HALE,
Plain tiff-Appellan t,
v.
UNITED STATES OF AMERICA; DEPARTMENT
OF VETERANS AFFAIRS; STEPHEN SEDER,
Doctor; RAJANI POTU, Doctor; BAYLOR
UNIVERSITY SYSTEM; MICHAEL DEBAKEY
MEDICAL CENTER (VA HOSPITAL),
Defendants-Appellees.
No. 19-20164
Appeal from the United States District Court
for the Southern District of Texas
Before: JOLLY, COSTA, and HO, Circuit Judges.
PER CURIAM
IT IS ORDERED that the petition for rehearing
is DENIED.

App.l2a
ENTERED FOR THE COURT:
/s/Gregg J. Costa__________ _
United States Circuit Judge

